No. _________
IN THE SUPREME COURT OF THE UNITED STATES

CLINTON DEVONE HICKS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of the Fifth Circuit, CA No. 18-11352, dated
May 15, 2019. United States v. Hicks, 770 Fed. Appx. 215 (5th Cir.
2019) (unpublished).
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas, entered October 11, 2018.
Appendix C Supreme Court order granting certiorari and remanding for
reconsideration, Supreme Court No. 19-5601. Hicks v. United States,
140 S. Ct. 1259 (2020).
Appendix D Judgment and Opinion of Fifth Circuit, on remand, CA No. 18-11352,
dated May 8, 2020. United States v. Hicks, 958 F.3d 399 (5th Cir.
2020).

APPENDIX A

Case: 18-11352

Document: 00514957275

Page: 1

Date Filed: 05/15/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-11352
Summary Calendar

FILED
May 15, 2019
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
CLINTON DEVONE HICKS,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:17-CR-570-1
Before JOLLY, COSTA, and HO, Circuit Judges.
PER CURIAM: *
Clinton Devone Hicks pleaded guilty to two counts of being a felon in
possession of a firearm in violation of 18 U.S.C. § 922(g). He was sentenced
under the Armed Career Criminal Act (ACCA) to the statutory minimum
sentence of 180 months of imprisonment for each offense, to be served
concurrently. See 18 U.S.C. § 924(e). On appeal, Hicks argues that his prior
Texas convictions for possession with intent to deliver a controlled substance

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 18-11352

Document: 00514957275

Page: 2

Date Filed: 05/15/2019

No. 18-11352
are not serious drug offenses for purposes of the ACCA enhancement and that
the indictment did not allege the convictions that formed the basis of the
enhancement.
The Government has filed an unopposed motion for summary
affirmance. In the alternative, the Government seeks an extension of time to
file its brief.
As the Government argues and Hicks concedes, his argument that his
prior convictions are not serious drug offenses under the ACCA is foreclosed by
United States v. Cain, 877 F.3d 562, 562-63 (5th Cir. 2017), cert. denied, 138
S. Ct. 1579 (2018), and United States v. Vickers, 540 F.3d 356, 363-66 (5th Cir.
2008). His argument challenging the indictment is foreclosed by AlmendarezTorres v. United States, 523 U.S. 224, 226-27 (1998).
In addition, Hicks argues that § 922(g) does not allow for prosecutions
for the possession of firearms that traveled in interstate commerce in the
distant past, and that if the statute does allow such convictions, it is
unconstitutional. He further argues that the statute requires the Government
to prove that he knew that: he possessed a firearm, he was a felon, and the
firearm was in or affecting interstate commerce.
The Government argues and Hicks concedes that his interstate
commerce argument is foreclosed by United States v. Alcantar, 733 F.3d 143,
145-56 (5th Cir. 2013). His argument challenging the constitutionality of
§ 922(g) is foreclosed by United States v. Daugherty, 264 F.3d 513, 518 (5th Cir.
2001). Finally, his mens rea argument is foreclosed by United States v. Dancy,
861 F.3d 77, 81-82 (5th Cir. 1988).
The judgment of the district court is AFFIRMED. The Government’s
motion for summary affirmance is GRANTED. Its alternative motion for an
extension of time is DENIED as unnecessary.

2

APPENDIX B

Case 3:17-cr-00570-K Document 38 Filed 10/10/18

Page 1 of 7 PageID 168

United States District Court
Northern District of Texas Dallas Division

§
§
§
§
§
§
§
§

UNITED STATES OF AMERICA
v.
CLINTON DEVONE HICKS

JUDGMENT IN A CRIMINAL CASE

Case Number: 3:17-CR-00570-K (01)
USM Number: 56621-177
Stephen James Green
Defendant’s Attorney

THE DEFENDANT:
☐ pleaded guilty to count(s)
pleaded guilty to count(s) before a U.S.

☒ Magistrate Judge, which was accepted by the
☐
☐

court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not
guilty

To the 2 Count Superseding Indictment, filed on January 23, 2018.

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense

Offense Ended

Count

18 USC § 922(g)(1) and 924(e) Felon in Possession of a Firearm

07/06/2017

1s

18 USC § 922(g)(1) and 924(e) Felon in Possession of a Firearm

12/07/2017

2s

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

☐ The defendant has been found not guilty on count(s)
☒ The Original Indictment, filed on November 8, 2017, is dismissed on the motion of the United States.
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

October 10, 2018
Date of Imposition of Judgment

Signature of Judge

Ed Kinkeade, United States District Judge
Name and Title of Judge

October 10, 2018
Date

Case 3:17-cr-00570-K Document 38 Filed 10/10/18

Page 2 of 7 PageID 169

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 2 of 7

CLINTON DEVONE HICKS
3:17-CR-00570-K (01)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:

ONE HUNDRED-EIGHTY (180) Months. This term consists of 180 months on each of Counts 1 and 2,
with said terms to run concurrently. This sentence shall run concurrently with Case Nos. F-1754616 and
F-1760310 in the 363rd District Court of Dallas County, and concurrently with Case No. M-1763458 in
Dallas County Criminal Court No. 1.
☒ The court makes the following recommendations to the Bureau of Prisons:
The Court recommends that the defendant be allowed to serve his sentence at FCI Bastrop, Bastrop,
Texas. Further, the Court recommends that the Defendant be allowed to Participate in the Residential
Drug Abuse Program, if eligible.
☒ The defendant is remanded to the custody of the United States Marshal.
☐ The defendant shall surrender to the United States Marshal for this district:
☐ at

☐

☐

a.m.

p.m.

on

☐ as notified by the United States Marshal.
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
☐ before 2 p.m. on
☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on

at

to

, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case 3:17-cr-00570-K Document 38 Filed 10/10/18

Page 3 of 7 PageID 170

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 3 of 7

CLINTON DEVONE HICKS
3:17-CR-00570-K (01)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: TWO (2) years.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

☐ The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)
4.

☐ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)

☒ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
6. ☐ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
5.

seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
7.

☐ You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

Case 3:17-cr-00570-K Document 38 Filed 10/10/18

Page 4 of 7 PageID 171

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 4 of 7

CLINTON DEVONE HICKS
3:17-CR-00570-K (01)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at www.txnp.uscourts.gov.
Defendant’s Signature

Date

Case 3:17-cr-00570-K Document 38 Filed 10/10/18

Page 5 of 7 PageID 172

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 5 of 7

CLINTON DEVONE HICKS
3:17-CR-00570-K (01)

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall participate in a program (inpatient and/or outpatient) approved by the
U.S. Probation Office for treatment of narcotic, drug, or alcohol dependency, which will
include testing for the detection of substance use or abuse. The defendant shall abstain from
the use of alcohol and/or all other intoxicants during and after completion of treatment. The
defendant shall contribute to the costs of services rendered (copayment) at a rate of at least
$25 per month.

Case 3:17-cr-00570-K Document 38 Filed 10/10/18

Page 6 of 7 PageID 173

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 6 of 7

CLINTON DEVONE HICKS
3:17-CR-00570-K (01)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

TOTALS

Assessment
$200.00

JVTA Assessment*
$.00

Fine
$.00

Restitution
$.00

☐ The determination of restitution is deferred until

An Amended Judgment in a Criminal Case (AO245C) will be entered
after such determination.
☐The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

☐ Restitution amount ordered pursuant to plea agreement $
☐ The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
☐

the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☐ the interest requirement is waived for the
☐ fine
☐ restitution

☐ the interest requirement for the

☐ fine

☐ restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

Case 3:17-cr-00570-K Document 38 Filed 10/10/18

Page 7 of 7 PageID 174

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 7 of 7

CLINTON DEVONE HICKS
3:17-CR-00570-K (01)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

☐ Lump sum payments of $

due immediately, balance due

☐ not later than
☐ in accordance

, or

☐

C,

☐

D,

B

☐ Payment to begin immediately (may be combined with

C

☐ Payment in equal

☐

E, or

☐

F below; or

☐

C,

☐

D, or

☐

(e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence

F below); or

over a period of

(e.g., 30 or 60 days) after the date of this judgment;

or
D

☐ Payment in equal 20 (e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence
imprisonment to a term of supervision; or

over a period of

(e.g., 30 or 60 days) after release from

E

☐ Payment during the term of supervised release will commence within

F

☒ Special instructions regarding the payment of criminal monetary penalties:

(e.g., 30 or 60 days) after release
from imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that
time; or

It is ordered that the Defendant shall pay to the United States a special assessment of $200.00 for Counts 1s and
2s , which shall be due immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

☐ Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.

☐ Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.

☐ The defendant shall pay the cost of prosecution.
☐ The defendant shall pay the following court cost(s):
☒ The defendant shall forfeit the defendant’s interest in the following property to the United States:
Pursuant to 18 U.S.C. § 924(d) and 28 U.S.C. § 2461(c) and Fed. R. Crim. P. 32.2(b)(4)(B), it is hereby ordered that
defendant’s interest in the following property is condemned and forfeited to the United States: (1) a Remington, Model
870, 12-gauge shotgun, bearing serial no. CC12005B; (2) a Winchester, Model 97, 12-gauge shotgun, bearing serial no.
994165; (3) a Clerke Technicorp, Model Clerke 1st, .32-caliber revolver, bearing serial no. 157810; (4) a Ruger, Model
SR45, .45-caliber pistol, bearing serial no. 380-38709, including any ammunition, magazines, and/or accessories recovered
with the firearms.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

APPENDIX C

Case: 18-11352

Document: 00515328947

Page: 1

Date Filed: 03/02/2020

APPENDIX D

Case: 18-11352

Document: 00515409956

Page: 1

Date Filed: 05/08/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-11352
UNITED STATES OF AMERICA,

FILED
May 8, 2020
Lyle W. Cayce
Clerk

Plaintiff - Appellee
v.
CLINTON DEVONE HICKS,
Defendant - Appellant

Appeal from the United States District Court
for the Northern District of Texas
ON REMAND FROM THE SUPREME COURT OF THE UNITED STATES
Before JOLLY, COSTA, and HO, Circuit Judges.
E. GRADY JOLLY, Circuit Judge:
In 2018, Clinton Hicks pled guilty to two counts of being a felon in
possession of a firearm in violation of 18 U.S.C. § 922(g)(1).

Hicks was

sentenced to 180 months’ imprisonment. Hicks appealed, arguing, among
other things, that § 922(g) required the government to prove that he knew of
his felon status. We summarily affirmed Hicks’s conviction, concluding that
his knowledge of felon status argument was foreclosed by our precedent.
United States v. Hicks, 770 F. App’x 215, 216 (5th Cir. 2019). The Supreme
Court vacated our decision and remanded for us to reconsider in the light of
Rehaif v. United States, 139 S.Ct. 2191, 2200 (2019), which held that in § 922(g)

Case: 18-11352

Document: 00515409956

Page: 2

Date Filed: 05/08/2020

No. 18-11352
prosecutions the government must prove that the defendant “knew he belonged
to the relevant category of persons barred from possessing a firearm.”
Upon remand, we directed the parties to file supplemental briefing.
Hicks asks us to vacate his guilty plea and convictions for two reasons: (1) there
was an insufficient factual basis to support his guilty plea, and (2) his guilty
plea was unknowingly and involuntarily entered. Because Hicks failed to raise
these arguments before the district court, our review is for plain error. See
United States v. Gomez, 905 F.3d 347, 352–53 (5th Cir. 2018). Under plain
error review, reversal is warranted only if the following three conditions are
met: (1) there was an error, (2) the error was plain, and (3) the error affected
the defendant’s substantial rights. See id. at 353. Once these conditions are
met, this court may “notice a forfeited error . . . if . . . the error seriously affects
the fairness, integrity, or public reputation of judicial proceedings.” Id.
We may consider the entire district court record in assessing whether
there was a sufficient factual basis to support Hicks’s guilty plea. See United
States v. Ortiz, 927 F.3d 868, 873 (5th Cir. 2019). Here, Hicks signed a factual
resume that stipulated that in July 2017 he possessed a “.32-caliber revolver
. . . after he had been convicted of a felony.” Hicks further stipulated that in
December 2017 “after having been previously convicted of a crime punishable
by imprisonment for a term exceeding one year, he knowingly and unlawfully
possessed a firearm.” Further, Hicks’s Presentence Investigation Report (PSR)
reflects that he had eleven prior adult criminal convictions.

The PSR

establishes that Hicks received a six-year sentence, and served two years’
imprisonment, on four of these convictions.

He was later imprisoned for

approximately two years on a separate conviction. Additionally, the PSR notes
that Hicks was arrested and charged with being a felon in possession of a
firearm in state court just two months before the incident that led to the first
felon in possession of a firearm charge brought in this case. The evidence is
2

Case: 18-11352

Document: 00515409956

Page: 3

Date Filed: 05/08/2020

No. 18-11352
thus overwhelming that Hicks knew he was a felon when he possessed the
firearms at issue. But, in any event, Hicks’s knowledge of his felon status is
at least subject to reasonable debate. Consequently, the district court did not
plainly err when it accepted the factual basis for Hicks’s guilty plea. See
Puckett v. United States, 129 S.Ct. 1423, 1429 (2009).
Hicks next contends that by failing to inform him of § 922(g)(1)’s
knowledge of felon status requirement the district court violated both Federal
Rule of Criminal Procedure 11(b)(1)(G) and principles of due process because
he was left unaware of the nature of the charges against him. As Hicks points
out, the Fourth Circuit has held that the failure to ensure that a defendant
understands that knowledge of felon status is an element of an offense under
§ 922(g)(1) is structural, constitutional error that may lead to reversal even
absent a showing of prejudice. See United States v. Gary, 954 F.3d 194, 207–
08 (4th Cir. 2020). But we have not considered Rehaif errors to warrant
automatic reversal. See, e.g., United States v. Huntsberry, --- F.3d ---, 2020 WL
1815120, at *9–10 (5th Cir. Apr. 10, 2020) (affirming § 922(g)(1) conviction
after defendant failed to show that the failure to instruct the jury on the
knowledge of felon status requirement affected his substantial rights). And,
more generally, in applying plain error review, we have required defendants
who claim that they were misadvised of the elements of the offenses to which
they pled guilty to show that “there is a reasonable probability that but for the
error, [they] would not have pleaded guilty.” See United States v. AlvaradoCasas, 715 F.3d 945, 953 (5th Cir. 2013); see also United States v. Owhib, 341
F. App’x 10, 12 (5th Cir. 2009). We see no reason why we should apply a
different standard to Hicks’s claim that he was misadvised about § 922(g)(1)’s
knowledge of felon status requirement.

We thus agree with the Seventh

Circuit that even though due process concerns are implicated when a
defendant claims that a Rehaif error rendered his guilty plea unknowing and
3

Case: 18-11352

Document: 00515409956

Page: 4

Date Filed: 05/08/2020

No. 18-11352
involuntary, the defendant satisfies plain error review only if he shows that
there is a reasonable probability that he would not have pled guilty had he
known of Rehaif. See United States v. Williams, 946 F.3d 968, 972–73 (7th Cir.
2020); see also United States v. Burghardt, 939 F.3d 397, 403 (1st Cir. 2019).
Here, Hicks has not argued, much less shown, that he would have gone
to trial if he had been informed of the knowledge of felon status requirement.
Given that the facts detailed in the PSR provide ample support for the
inference that Hicks knew of his felon status when he possessed the firearms,
we conclude that Hicks has failed to show that the Rehaif error affected his
substantial rights. And, in any event, Hicks has not shown that the error
“seriously affect[ed] the fairness, integrity, or public reputation of judicial
proceedings.” Gomez, 905 F.3d at 353. We see nothing unfair about affirming
Hicks’s conviction when the record contains substantial evidence that he knew
of his felon status. As stated, when Hicks possessed the firearms, not only had
he served more than two years’ imprisonment on two separate occasions, he
had also recently been charged in state court with being a felon in possession
of a firearm. Based on this record, we cannot say that upholding Hicks’s
conviction would adversely affect the public reputation of the judicial
proceedings even if he had demonstrated that the failure to inform him of the
knowledge of felon status requirement was prejudicial. We therefore decline
to vacate Hicks’s guilty plea and conviction due to Rehaif. 1

Hicks states that he continues to preserve for further appellate review his arguments
that (1) § 922(g) requires the government to prove that he knew the firearms were in or
affecting interstate commerce; (2) § 922(g) does not allow prosecutions for the possession of
firearms in the distant past, and that, if the statute allows such convictions, it is
unconstitutional; (3) the indictment should have specified the prior convictions that formed
the basis of his sentencing enhancement under the Armed Career Criminal Act; and (4) his
prior convictions do not qualify as serious drug offenses under the Armed Career Criminal
Act. These arguments remain foreclosed in this circuit. See United States v. Dancy, 861 F.2d
77, 81–82 (5th Cir. 1988); United States v. Daugherty, 264 F.3d 513, 518 (5th Cir. 2001);
United States v. Alcantar, 733 F.3d 143, 145–46 (5th Cir. 2013); Almendarez-Torres v. United
1

4

Case: 18-11352

Document: 00515409956

Page: 5

Date Filed: 05/08/2020

No. 18-11352
Accordingly, the judgment of the district court is, in all respects,
AFFIRMED.

States, 118 S.Ct. 1219, 1222 (1998); United States v. Prentice, --- F.3d ---, 2020 WL 1847466,
at *4 (5th Cir. Apr. 13, 2020). We thus reaffirm our grant of summary affirmance on these
issues.

5

